<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]


 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                        THURSDAY, MARCH 19, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:08 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. John Hoeven (chairman) presiding.
    Present: Senators Hoeven and Shaheen.

                    DEPARTMENT OF HOMELAND SECURITY

                           U.S. Secret Service

STATEMENT OF JOSEPH P. CLANCY, DIRECTOR


                opening statement of senator john hoeven


    Senator Hoeven. The subcommittee will come to order.
    I would like to welcome Ranking Member Shaheen, and also 
our witness today, the Director of the Secret Service, Mr. 
Joseph Clancy.
    Thank you for being present. I have some opening remarks, 
and then we'll turn to Senator Shaheen for her remarks, and 
then, of course, we will invite your opening remarks, Director.
    As I said, I would like to thank our witness, Joseph 
Clancy, the newly appointed Director of the United States 
Secret Service, for being here today, as well as Senator 
Shaheen. I look forward to working with everybody on the fiscal 
year 2016 appropriations process.
    Our focus today is on the fiscal year 2016 budget request 
for the Secret Service. With an overall budget request from the 
President that exceeds the budget caps, obviously it is 
critical that we assess what the Service needs to meet its 
mission.
    At the same time, our inquiry today is colored by the 
unfortunate incidents that have hampered the Service in recent 
years. Six months ago today, Omar Gonzalez scaled the fence on 
the North Lawn and made his way into the White House.
    Last week, more allegations of inappropriate activity came 
to light. Until the investigation is completed, I will not 
prejudge the outcome. But these recurring events are truly 
concerning and need to be addressed.
    To that end, the Department of Homeland Security (DHS) 
Secretary called for a review by the Deputy Secretary, Deputy 
Secretary Mayorkas, and an independent Protective Mission 
Panel. We will discuss their findings and the Service's plan 
for implementing those recommendations.
    But as the mission panel report notes, many of its 
recommendations are not novel or unique to last year's White 
House fence-jumper incident. Rather, they are challenges that 
have been with the Secret Service now over a longer period of 
time.
    In 1964, the Warren Commission cited, among other things, 
an insufficient workforce that was often spread too thin. The 
1995 White House Security Review is even more relevant, 
highlighting ineffective command and control functions, 
communication problems, and the threat of gate-crashers, fence-
jumpers, and even air incursions.
    While the times and technology have changed, some of these 
issues have not. Again, that is why I emphasize they need to be 
addressed both now and on a long-term basis.
    Today's hearing offers an opportunity for a candid 
discussion of these issues and how this subcommittee can help 
address them. This includes the costs associated with one of 
the panel's key recommendations, which is replacing the primary 
fence around the White House complex.
    We will also discuss what seems to be the ongoing issue of 
tactical communications, very important, as well as how best to 
hire, train, and retain an effective workforce.
    Addressing these issues is a funding challenge, but it is 
also one of management. The Director and his leadership team 
must be examples to instill confidence in the workforce. Recent 
surveys of the workforce indicate that that continues to be a 
challenge.
    And it is one, Director, I know you are very focused on.
    This statement would be incomplete if I did not mention the 
Service's investigative mission, which is fundamental to its 
identity, invaluable to the protection of our financial system, 
and critical to your personnel development. The Service is 
requesting over $300 million in fiscal year 2016 for this 
mission, which includes conducting investigations, operating 
the Electronic Crimes Task Forces, and reaching out to help the 
private sector, as well as training State and local law 
enforcement.
    Absent from the President's request is support for the 
National Center for Missing and Exploited Children (NCMEC), 
which the Service has provided for years. The subcommittee is 
interested to know why in this budget request, which is over 
the cap, that funding is not included. I know it has not been 
included in the past. Particularly with the Budget Control Act 
(BCA) budget cap exceeded here, I would like to know why it 
wasn't included.
    In closing, I would like to read a quotation from the 
personnel manual that all Secret Service employees are 
provided. ``Each point on the Secret Service star represents 
one of the agency's five core values: justice, duty, courage, 
honesty, and loyalty. These values should resonate with each 
man and woman in our organization. The building block, the very 
foundation of these values, is our personal and professional 
code of conduct.''
    So today, we want candid answers about the challenges that 
the Secret Service has and how we are going to administer 
those. We will be particularly focusing on manpower, on 
training, on command and control, and on communications, and 
not only in regard to the March 4 incident but the September 19 
incident of last year, and really, the ongoing issues that have 
been referenced in earlier reports and commissions.
    So again, I thank you for being here.
    At this point, I will turn to Senator Shaheen for her 
comments.


                  statement of senator jeanne shaheen


    Senator Shaheen. Thank you, Mr. Chairman.
    I look forward to working with you as we address the 
challenges facing Homeland Security as well as we worked 
together on the subcommittee that addressed the legislative 
branch of the Appropriations Committee.
    This is our first budget hearing for fiscal year 2016, and 
it is the first time in over a decade that the Senate 
Appropriations Committee has held a hearing with the Secret 
Service specifically on its budget.
    The Secret Service performs two vital functions: protecting 
the President and other authorized individuals while also 
protecting the integrity of the U.S. currency and investigating 
crimes against the national financial system.
    The fiscal year 2016 budget request totals more than $1.94 
billion, $273 million more than we appropriated in fiscal year 
2015. This increase is on top of additional funding we provided 
in the recently enacted fiscal year 2015 appropriation to 
address vulnerabilities identified after several security 
breaches at the White House.
    Based on recent events, it is also obvious that the Secret 
Service needs to address a number of operational 
vulnerabilities. Some of these issues, such as perimeter 
security and enhanced fencing, can be fixed with additional 
funding, but other issues are more intangible.
    Money can't fix a culture that, in the eyes of many of the 
public and many here in Congress, is broken. Director Clancy, 
if the Secret Service is going to fix its many problems and 
rebuild the trust of the American people, it is going to 
require your leadership. But it is also going to require the 
men and women of the Secret Service to take individual 
responsibility for their actions and to be accountable to the 
American people.
    Director Clancy, I very much appreciate your forthrightness 
in bringing some of these issues to our attention. You have 
been appointed by the President to right a listing ship. Time 
is of the essence in addressing these concerns. None of us have 
the luxury of waiting to find a perfect solution.
    We look forward to assisting you. The importance of your 
mission can't be overstated. Failure can't be countenanced. In 
the face of a determined enemy, the Secret Service must remain 
ever vigilant.
    I look forward to hearing your testimony this afternoon. 
Thank you.
    Senator Hoeven. Thank you, Senator Shaheen.
    With that, we turn to Director Clancy.


                 summary statement of joseph p. clancy


    Mr. Clancy. Good afternoon, Chairman Hoeven, Ranking Member 
Shaheen, and distinguished members of this subcommittee. I am 
pleased to appear before you today to discuss the President's 
fiscal year 2016 budget for the Secret Service. As the newly 
appointed Director, I am honored to lead the men and women of 
this important agency through this challenging time.
    With respect to the allegations of employee misconduct on 
March 4, 2015, I personally became aware of the allegations on 
March 9 when I received a phone call informing me of an 
anonymous email that was circulating. On that same date, I 
determined that the allegations should be referred to the 
Department of Homeland Security's Office of the Inspector 
General (OIG).
    I made this decision because allegations of misconduct 
involving employees at the GS-15 level and higher must be 
referred to the OIG in accordance with departmental policy.
    I trust the OIG's investigation will be thorough. I have 
committed the Secret Service's full cooperation to the OIG, and 
I eagerly await the findings of the investigation.
    The fact that I did not learn of this allegation until 5 
days after it is said to have occurred is unacceptable. I am 
very unhappy about it. I called my senior staff together last 
week and made clear my expectations for prompt notification of 
allegations of misconduct that could affect our mission or that 
violate the agency's standards of conduct.
    If it is determined that any employees concealed 
information about this alleged incident, they will be held 
accountable. Our mission is too important for this to happen. 
It undermines my leadership, and I won't stand for it.
    Over the past several months, I have made extensive 
personnel changes in senior leadership in an effort to bring 
about positive change. These were not easy decisions, and many 
of the people who left served the agency and our country 
honorably during their careers. But as the leader of this 
organization, I will do what is necessary to put us back on the 
right track. And it starts with our people taking 
responsibility for their actions on duty and off duty.
    Let me also be clear that I do not have the ability to 
simply terminate employees solely on the basis of allegations 
of misconduct. This is not because I am being lenient, but 
because the agency's ability to take action is controlled by 
title 5 of the United States Code, which provides Federal 
Government employees with certain statutory, due process 
rights.
    The next step in this process is to wait for the issuance 
of the OIG report, at which point we will determine the 
appropriate disciplinary actions consistent with our Table of 
Penalties.
    Once again, if the OIG investigation reveals misconduct, 
those involved will be punished.
    I have also personally reviewed video surveillance from the 
evening of March 4, and I welcome the opportunity to review 
this footage with each of you. On the basis of the footage, 
previous reports of a crash are inaccurate. There was no crash.
    The video shows a vehicle entering the White House complex 
at a speed of approximately 1 to 2 mph and pushing aside a 
plastic barrel. There was no damage to the vehicle.
    Although I am extremely concerned about the allegations of 
misconduct and the potential for alcohol involvement, I must 
reserve judgment on these matters until the OIG investigation 
is completed.
    Turning to our budget, I want to thank all members for 
their work on the 2015 Department of Homeland Security 
Appropriations Act. For a second year in a row, this 
subcommittee worked diligently to provide the Secret Service 
with additional resources to support our staffing, training, 
and operational needs.
    In addition, the 2015 bill includes $25 million to begin 
the necessary enhancements associated with the Protective 
Mission Panel recommendations that were included in a report to 
Secretary Johnson on December 15, 2014. The panel's 
recommendations have brought focus to staffing, training, and 
leadership deficiencies in the agency, and technology and 
perimeter security requirements at the White House complex.
    However, because the Secret Service's mission extends 
beyond the issues addressed in the panel's report, I am 
committed to zero-basing the agency's budget to determine the 
full extent of our operational requirements.
    The 2016 budget builds on the protective mission 
enhancements that are under way this fiscal year. My written 
statement provides a thorough overview of the budget request, 
and I hope that some portion of today's hearing allows for a 
discussion on the many important aspects of this request.
    Notably, the budget request provides critical funding for 
protective mission enhancements related to the Protective 
Mission Panel recommendations; resources to ensure the Secret 
Service is prepared for what is projected to be a demanding 
presidential campaign; and funds to complete the staffing 
requirements for President Obama's protective detail, once his 
term in office comes to a close.
    Superior performance by the men and women on the frontlines 
begins with superior leadership. To that end, I have worked to 
open the lines of communication between the rank and file and 
their supervisors. I made significant changes in top leadership 
positions across the Secret Service to inspire a renewed focus 
on staffing, training, protective operations, investigations, 
and professional responsibility.
    I am in the process of restructuring the Secret Service's 
executive leadership to better leverage the experience of 
civilian professionals, while allowing law enforcement 
personnel to focus on their core areas of expertise.
    With the support of the department and the Congress, over 
the next several years, I am confident that we can put the 
Secret Service on a path to success for decades to come.
    Chairman Hoeven, Ranking Member Shaheen, this concludes my 
testimony. I welcome any questions you have at this time.
    [The statement follows:]

                  Prepared Statement of Joseph Clancy
                              introduction
    Good morning Chairman Hoeven, Ranking Member Shaheen and 
distinguished Members of the Committee. I am pleased to appear before 
you today to discuss the President's fiscal year (FY) 2016 Budget for 
the Secret Service. I am grateful to this subcommittee for the 
courtesies you have extended to me in my short time back, and for your 
support in crafting a budget for fiscal year 2015 that will help the 
agency continue the hiring, training, and protective mission 
enhancements required to get well. As the newly appointed Director of 
the Secret Service, I am tremendously honored to lead the men and women 
of this important agency through this challenging time. Despite the 
allegations of misconduct involving two senior-level special agents at 
the White House Complex on March 4, 2015, in my short time back I have 
been impressed by the selfless dedication of the workforce and people's 
willingness to make the necessary reforms for the betterment of the 
mission. With respect to these recent allegations, the Secret Service 
has turned over the investigation to the Department of Homeland 
Security's (``the Department'') Office of the Inspector General 
(``OIG''). I have committed our full cooperation with this 
investigation and eagerly await its findings.
    This subcommittee's support is especially critical given the high 
protection demands and increased operational tempo expected later this 
year. Pope Francis will visit the United States in September with 
events planned in Washington, DC; New York, NY; and Philadelphia, PA. 
Thus far, only the World Meeting of Families event in Philadelphia, 
which is expected to draw 2.1 million people, has been designated a 
National Special Security Event (``NSSE'') by the Secretary. Also in 
September, the Secret Service will fulfill its obligation to secure the 
annual meeting of the United Nations General Assembly (``UNGA'') on its 
70th anniversary. The UNGA is always a challenge for the Secret 
Service, as it recurs annually in the final weeks of the fiscal year, 
but with a major anniversary coinciding with the Papal visit, I expect 
this year to be especially demanding on our front-line employees. 
Special agents from across the field and headquarters will be called 
upon to establish temporary protective details for an expected record 
number of visiting heads of state and government, Uniformed Division 
(``UD'') officers will provide magnetometer support and protective site 
security for multiple venues, special operations teams will be assigned 
to high-level visiting dignitaries, and technical security and 
communications teams will be working weeks in advance to ensure mission 
success.
    Superior performance by these men and women on the front lines 
begins with superior leadership. To that end, I have worked to open the 
lines of communication between the rank and file, their supervisors, 
and executive leadership. I made significant changes in top leadership 
positions across the Secret Service to inspire a renewed focus on human 
capital, training, protective operations, investigations, budgeting, 
and professional responsibility. Part of this effort included the 
creation of a standalone Office of Training, which will have a direct 
impact on the way the agency plans for and conducts operational 
training for special agents and UD officers by creating a stakeholder 
seat on the Secret Service's Executive Review Board. This will allow 
the agency to set clear priorities and better align training 
requirements with the demands of the mission. It is critically 
important that the Secret Service get back to basics by staffing the 
agency at levels commensurate with the workload and incorporating the 
required training to ensure optimal performance at all times.
                  professionalism within the workforce
    When I talk about optimal performance, I want to be clear that I 
expect all employees in the Secret Service to conduct themselves in a 
manner consistent with the oath they swore to uphold when they entered 
the agency, and with the individual responsibility and core values that 
have guided many generations of employees before them. The conference 
report that accompanies the fiscal year 2015 Homeland Security 
Appropriations Act requires the Secret Service to submit a report to 
the Appropriations Committees ``providing evidence that the [agency] 
has sufficiently reviewed its professional standards of conduct; issued 
new guidance for the procedures and conduct of employees when engaged 
in overseas operations and protective missions; and instituted a 
professional standards policy consistent with the agency's critical 
missions and unique position of public trust.'' \1\
---------------------------------------------------------------------------
    \1\ Joint Explanatory Statement, which accompanied H.R. 240, 
Department of Homeland Security Appropriations Act, 2015.
---------------------------------------------------------------------------
    Over the past several years, the Secret Service has taken numerous 
actions in response to the recommendations of the Professionalism 
Reinforcement Working Group and the Department of Homeland Security's 
(``the Department'') Inspector General. These actions include the 
creation of a Chief Integrity Officer to centralize discipline 
processes and reinforce the importance of leadership and accountability 
with supervisors; the establishment of a Table of Penalties; the 
creation of an ``Inspection Hotline'' for employees to report 
misconduct and allow the agency to initiate swift investigative or 
administrative action; and the addition of senior-level employees to 
jump teams on all foreign trips.
    As these actions took place prior to my appointment, I am committed 
to fully reviewing them to ensure they are achieving their intended 
outcomes. I firmly believe the Secret Service's mission requires all 
employees to strive for operational and personal excellence at all 
times.
              fiscal year 2016 budget context and summary
    Before I provide details on the fiscal year 2016 Budget for the 
Secret Service, I want to thank all Members of the Committee for your 
work on the fiscal year 2015 Department of Homeland Security 
Appropriations Act, which the President signed on March 4, 2015. For a 
second year in a row, this subcommittee worked diligently to provide 
the Secret Service with resources to help the agency recover from 
staffing shortfalls associated with attrition and limited hiring in 
fiscal year 2012 and fiscal year 2013, support our training and 
operational needs, and expand training for State and local law 
enforcement officers, prosecutors, and judges at the National Computer 
Forensics Institute (``NCFI'').
    In addition, our fiscal year 2015 appropriations includes $25 
million above the request to begin the necessary protective mission 
enhancements associated with the findings related to the September 19, 
2014 White House incursion. The details of that egregious security 
breach were documented in a report prepared by Deputy Secretary 
Mayorkas (``Mayorkas Report''), which was followed-up by 
recommendations from the independent Protective Mission Panel (``the 
Panel'') that were included in a report to Secretary Johnson on 
December 15, 2014. Taken in sum, these two reports provide a consistent 
assessment of what went wrong on September 19, 2014, and steps the 
Secret Service must take to ensure a breach of that magnitude never 
happens again. The Panel's recommendations in particular have brought 
focus to staffing, training, leadership, and technology and perimeter 
security requirements at the White House Complex. However, since the 
Secret Service's mission extends beyond the issues addressed in the 
Panel's report, I am committed to zero-basing the agency's budget to 
determine the full extent of our operational requirements. Although the 
fiscal year 2016 Budget was formulated prior to my arrival, I believe 
it represents an important step forward.
    The fiscal year 2016 Budget represents the largest year-to-year 
increase for the Secret Service since the agency was transferred from 
the Department of Treasury to the Department of Homeland Security more 
than 12 years ago and builds on the protective mission enhancements 
that are underway this fiscal year. The request totals $1.94 billion, 
an increase of $273.3 million or 16.4 percent above the fiscal year 
2015 enacted level, and supports 6,647 Full Time Equivalents (``FTEs'') 
across the agency. Program increases in the budget total $235.9 million 
and include: $86.7 million for Protective Mission Enhancements 
associated with the Panel's recommendations; $25.7 million to complete 
the staffing requirements for President Obama's protective detail once 
his term in office comes to a close; and $123.5 million for protection 
costs associated with the 2016 Presidential Campaign and campaign-
related NSSEs.
Protective Mission Enhancements
    The $86.7 million requested in fiscal year 2016 to address specific 
recommendations made by the Panel can be broken down across four 
categories: (1) personnel initiatives; (2) training center 
improvements; (3) White House security infrastructure improvements; and 
(4) protective technology upgrades. Of all the Panel's recommendations, 
there are no greater priorities for me than staffing the agency at a 
level commensurate with the demands of the mission, and ensuring that 
our employees receive the training they need to do their jobs 
effectively.
Personnel Initiatives
    For personnel initiatives, the request includes $3.4 million to 
continue the Secret Service's efforts to address attrition within the 
Uniformed Division. Combining efforts to address attrition with our 
aggressive hiring strategy for UD officers in 2015 and 2016 is critical 
to meet the Panel's recommendation to ``[increase] the Uniformed 
Division, as quickly as can be appropriately managed, by an initial 200 
positions'' The Panel also recommended that the Secret Service 
``[reform] and professionalize recruiting, hiring, promotion and 
rotation [processes]'' To partially address this recommendation, the 
Budget includes $4.8 million to enhance administrative support to help 
the agency hire people in a more efficient manner, as well as support 
focused marketing campaigns to target highly qualified and diverse 
candidate populations.\2\ In addition, the Department's Deputy Chief 
Human Capital Officer is on a temporary assignment to the Secret 
Service to help identify strategies to professionalize the agency's 
recruitment and hiring efforts.
---------------------------------------------------------------------------
    \2\ United States Secret Service Protective Mission Panel, 
Executive Summary to [the] Report from the United States Secret Service 
Protective Mission Panel to the Secretary of Homeland Security, 
December 15, 2014, p. 7. Available at: http://www.dhs.gov/sites/
default/files/publications/14_1218_usss_pmp.pdf.
---------------------------------------------------------------------------
Training Center Improvements
    The Mayorkas Report made clear that lack of training contributed to 
the White House incursion on September 19, 2014, and documented the 
confusion that took place that evening between responding UD officers 
and special operations teams. Since that time, the James J. Rowley 
Training Center (``JJRTC'') has implemented a number of enhancements to 
in-service training, including mandatory 4th Shift Training for the 
Presidential and Vice Presidential protective divisions, and the 
creation of several mandatory integrated training courses for all 
Washington, DC-based protective details and UD officers.
    To fulfill the Panel's recommendation to ``[train] in conditions 
that replicate the physical environment in which [Secret Service law 
enforcement personnel assigned to the White House] will operate,'' \3\ 
the Budget includes $8 million for the design and initial construction 
of a White House mock-up at the JJRTC in Beltsville, Maryland. The 
Secret Service currently uses a rudimentary, not-to-scale simulation of 
the north grounds of the White House, using bike barricades to act as 
the fencing. There are no structures, vehicle gates, lighting, or other 
aides to enhance the training simulations at the JJRTC. The proposed 
White House mock-up will provide a more realistic environment, 
conducive to scenario-based training exercises, for UD officers and 
special agents during basic recruit and in-service training courses. 
Funds requested in fiscal year 2016 will enable the Secret Service to 
complete design and move to construction of the White House facade, 
including the residence, East and West Wings, guard booths, surrounding 
grounds, and roadway.
---------------------------------------------------------------------------
    \3\  Ibid., p. 7.
---------------------------------------------------------------------------
    In addition to the White House mock-up facility, the request 
includes $8 million to enable the Secret Service to renovate and 
modernize the agency's canine training facility at JJRTC to accommodate 
the current size of the canine program. The existing facility was built 
in 1983 and was designed to accommodate 14 canine kennels; the Secret 
Service currently operates 118 canine teams. The existing cages at the 
facility are smaller than the current industry standard and have caused 
health issues for the dogs.
    The Budget also provides funds to renovate tactical training areas 
and refurbish existing firearms ranges at the JJRTC. Planned 
renovations include updates to the indoor pistol range, which currently 
operates on a single air handling system, and only provides heating/air 
conditioning for either the ranges or the classrooms when in full 
operation. In addition, the outdoor pistol/rifle ranges are in need of 
renovations to target systems, air blowers, tower operations, and 
lighting. The live fire ``shoot house,'' used for training by the 
special operations tactical units, has never been renovated, and is in 
need of infrastructure replacement, camera systems, and the addition of 
a classroom facility. The Tactical Village, used to recreate a city 
street environment for more realistic training scenarios, also requires 
infrastructure repair and safety enhancements.
White House Infrastructure Improvements
    One of the most well publicized recommendations of the Panel was to 
replace the fence around the White House as quickly as possible. As 
documented in their report, ``the ease with which `pranksters' and the 
mentally ill can climb the current fence puts Secret Service personnel 
in a precarious position: When someone jumps the fence, they must 
decide, in a split-second, whether to use lethal force on a person who 
may not pose a viable threat to the President or the White House.'' \4\ 
I have said in previous testimony before Congress that if someone does 
attempt to scale the White House fence, I want to ensure they are met 
with immediate and forceful resistance. But I also view the fence 
itself as a needed deterrent for would-be fence-jumpers.
---------------------------------------------------------------------------
    \4\  Ibid., p. 2.
---------------------------------------------------------------------------
    To advance the replacement of the existing fence around the White 
House, the Secret Service is in the midst of a joint study with the 
National Park Service to develop fence options that meet both security 
and aesthetic criteria in recognition of the historical importance of 
the site. The fence study is expected to be completed next month at 
which point the Secret Service will immediately advance to the design 
stage of the project using funds provided by Congress in fiscal year 
2015.
    The fiscal year 2016 Budget provides $8.2 million, requested as 
two-year funds, for the construction of the new fence and associated 
infrastructure enhancements around the perimeter of the White House. 
Although the $8.2 million represents a good faith estimate on the cost 
to replace the fence, the agency will have a better sense of the cost 
once a preferred fence option is selected and the design work is 
underway. Once complete, these enhancements will delay individuals 
attempting to scale or defeat the fence, and provide our personnel with 
additional time to respond to these attempts. As the Panel noted, 
``[every] additional second of response time provided by a fence that 
is more difficult to climb makes a material difference in ensuring the 
President's safety and protecting the symbol that is the White House.'' 
\5\
---------------------------------------------------------------------------
    \5\  Ibid., p. 2.
---------------------------------------------------------------------------
Protective Technology Upgrades
    While much of the Panel's recommendations pertaining to technology 
included classified material, their public report made clear that 
``[technology] systems used on the [White House Complex] must always 
remain cutting edge, and the [Secret Service] must invest in 
technology, including becoming a driver of research and development 
that may assist its mission.'' \6\ To address this recommendation, the 
Budget requests necessary upgrades to radio communication 
infrastructure to modernize and improve the reliability of audio 
communications at the White House Complex and throughout the National 
Capital Region. As noted by the Panel, these systems are obsolete and 
need to be upgraded. The Budget also includes funding to update all 
communication, video, and data systems at the Secret Service's Joint 
Operations Center, which functions as the command-and-control center 
for protective operations at the White House Complex.
---------------------------------------------------------------------------
    \6\  Ibid., p. 7.
---------------------------------------------------------------------------
    To enhance protective intelligence activities, the Budget provides 
funding to upgrade the system the Secret Service uses to share 
information between state, local, and Federal law enforcement agencies 
with protective detail responsibilities. This information sharing 
system gives law enforcement the ability to better assess the level of 
risk that a known person of interest may pose to the law enforcement 
community, and is used by approximately 55 law enforcement agencies, 
including the U.S. Capitol Police. Pursuant to the Panel's findings, 
these upgrades will allow personnel to query multiple Secret Service 
databases simultaneously and enable faster dissemination and sharing of 
information. The fiscal year 2016 Budget would also give the Secret 
Service's Counter Surveillance Division the ability to link suspicious 
activity reports from multiple law enforcement agencies, regardless of 
the location. This capability would tie into the Protective 
Intelligence Division reporting system and allow for the immediate 
dissemination of adverse protective intelligence to our law enforcement 
partners.
Former President Obama Protective Detail
    As authorized by law, the Secret Service protects former Presidents 
and their spouses for their lifetimes, and children of a former 
President who are under 16 years of age.\7\ As was the case with the 
establishment of past protective details for former Presidents, the 
staffing and residential security requirements for the Obama Protective 
Detail (``OPD'') will require funding across three fiscal years (FYs 
2015-2017), with actual protective operations scheduled to begin on 
January 20, 2017.
---------------------------------------------------------------------------
    \7\  18 U.S.C. Sec. 3056(a)(3)-(4).
---------------------------------------------------------------------------
    Significant planning and funding are required well before that time 
to ensure that personnel are hired, trained, and stationed in the field 
to replace the more experienced special agents who will be assigned to 
the new protective division. Estimating the full cost of protecting a 
former President this early comes with inherent challenges. The Secret 
Service does not know at this time where the First Family will reside 
once they leave the White House; whether or not the daughters will be 
granted protection beyond 16 years of age as has been done in the past; 
and whether or not the President and First Lady will travel at a rate 
commensurate with other former Presidents and First Ladies. These 
variables will require close attention as they could impact out-year 
funding requirements.
    Our enacted 2015 appropriations includes $4 million to hire 81 
special agents for the OPD. The fiscal year 2016 Budget includes 
second-year costs for those new hires, as well as funding to hire an 
additional 27 special agents and 30 administrative, professional, and 
technical personnel to complete the staffing requirements. The request 
also includes funding for permanent-change-of-station expenses and 
protective detail training for the special agents who will actually be 
assigned to the new division.
2016 Presidential Campaign
    With less than 2 years remaining before President Obama's term in 
office comes to a close, the Secret Service is preparing for campaign 
protection requirements similar to those of 2008, the last time no 
incumbent President ran for office. As authorized by law, the Secret 
Service protects major Presidential and Vice Presidential candidates 
and, within 120 days of the general Presidential election, the spouses 
of such candidates. Secret Service protection for major Presidential 
and Vice Presidential candidates is directed by the Secretary of 
Homeland Security after consultation with an advisory committee 
consisting of the Speaker of the House of Representatives, the minority 
leader of the House of Representatives, the majority and minority 
leaders of the Senate, and one additional member selected by the other 
members of the committee. This fifth member of the advisory committee 
has traditionally been the Sergeant-at-Arms of either the House of 
Representatives or the Senate.\8\
---------------------------------------------------------------------------
    \8\  18 U.S.C. Sec. 3056(a)(7).
---------------------------------------------------------------------------
    During every campaign, the Secret Service's budget temporarily 
grows to accommodate the surge in protection requirements associated 
with the presidential campaign and nominating conventions. Of the total 
$203.7 million requested in fiscal year 2016 for campaign protection 
and campaign-related NSSEs, $54.7 million simply reflects a temporary 
realignment of existing base resources from the Domestic Field Office 
PPA to support campaign protection activities. When people ask how it 
is the Secret Service can protect multiple candidates traveling between 
different cities and states in a matter of hours, I point to the 
special agents who serve in our field offices around the country. 
Without the support of highly-trained special agents who have 
experience with investigations and protection, the Secret Service would 
be unable to handle the surges in protective operations associated with 
presidential campaigns, NSSEs, and major events such as the UNGA, or 
routine protective operations for that matter.
    Since it is impossible to know how many candidates the Secret 
Service will be directed to protect when the campaign budget is 
formulated, the agency uses scenario-based modeling to estimate the 
projected costs of campaign protection activities. As was the case with 
previous campaigns, the Secret Service estimated the total number of 
protection days and anticipated cost per protection day to develop the 
budget for the 2016 Presidential Campaign. One significant change in 
the upcoming campaign was the announcement by the Republican and 
Democratic National Committees of their decision to move their 
respective nominating conventions earlier in the calendar year. Since 
the Secret Service is typically directed to begin protection of Vice 
Presidential candidates and their families in the lead up to these 
events, the number of protection days is projected to be higher than 
previous presidential campaigns.
    Securing the two nominating conventions is one of the most 
expensive and challenging aspects of campaign protection. These high-
profile NSSEs typically attract more than 50,000 participants each and 
last three to four days. The Secret Service begins work months in 
advance to plan and coordinate comprehensive security operations to 
identify and mitigate threats that could harm our protectees, other 
dignitaries, and the general public attending these events. For 
example, to mitigate the risk of a cyber attack on critical systems and 
infrastructure that could adversely affect security plans, special 
agents trained in Critical Systems Protection are responsible for 
securing venues that are increasingly automated and interconnected, 
with major building systems that can be operated remotely. For the 
Republican National Convention and Democratic National Convention, as 
well as for major campaign sites and the Presidential and Vice 
Presidential debates, the Secret Service will protect critical systems 
and key infrastructure associated with these venues that may be 
vulnerable to cyber intrusions, surveillance, and manipulation.
                    criminal investigative successes
    To accomplish its cyber protection mission, the Secret Service 
recruits from within the agency's Electronic Crimes Special Agent 
Program, specifically the Computer Forensics and Network Intrusion 
Responder disciplines. Special agents trained in these areas are 
responsible for the successful investigations into many of the largest 
known data breaches in recent memory, including Target, TJ Maxx, Dave & 
Buster's, Heartland Payment Systems, and others. Just last month, a 
Secret Service led investigation resulted in the arrest and extradition 
of Vladimir Drinkman, a Russian national who will face charges that he 
allegedly conspired in the largest international hacking and data 
breach scheme ever prosecuted in the United States.\9\
---------------------------------------------------------------------------
    \9\ See http:// www.justice.gov/usao/nj/Press/files/
Drinkman,%20Vladimir%20Extradition
%20News%20Release.html.
---------------------------------------------------------------------------
    Investigating these crimes is not new for the Secret Service. For 
over three decades the agency has investigated cyber criminal activity 
\10\ and worked to counter some of the most skillful transnational 
cyber criminal groups. The Secret Service proactively investigates 
cyber crime using a variety of investigative means to infiltrate these 
transnational cyber criminal groups and counter every element of their 
criminal schemes. As a result of these proactive investigations, the 
Secret Service is often the first to learn of planned or ongoing data 
breaches and is quick to provide affected companies and institutions 
with actionable information to mitigate the damage from the data breach 
and terminate the criminal's unauthorized access to their networks.
---------------------------------------------------------------------------
    \10\ Congress enacted 18 U.S.C. Sec. Sec. 1029-1030 as part of the 
Comprehensive Crime Control Act of 1984 and explicitly assigned the 
Secret Service authority to investigate these criminal violations.
---------------------------------------------------------------------------
    The Secret Service's global network of 38 Electronic Crimes Task 
Forces are the foundation for the agency's investigations of cyber 
crime and our primary means of sharing actionable information with 
potential victim companies. For example, in 2014, based on information 
discovered through just one of the agency's ongoing cyber crime 
investigations, the Secret Service notified hundreds of U.S. entities 
of cyber criminal activity targeting their organizations.
    The Secret Service also invests in developing the capabilities of 
our state and local partners. In partnership with the State of Alabama, 
the Secret Service operates the NCFI to train state and local law 
enforcement investigators, prosecutors, and judges in how to conduct 
computer forensic examinations, respond to network intrusion incidents, 
and conduct cyber crimes investigations. Graduates of NCFI typically 
join the Secret Service's network of ECTFs and have frequently made 
vital contributions to significant Secret Service investigations of 
transnational cyber criminals.
    As the Secret Service investigates cyber crime, we discover new and 
emerging cyber criminal methods and share relevant cybersecurity 
information broadly to enable other organizations to secure their 
networks while protecting ongoing investigations and the privacy of all 
involved. The Secret Service accomplishes these objectives through 
contributions to industry-leading annual reports like the Verizon Data 
Breach Investigations Report and the Trustwave Global Security Report, 
and through more immediate reports, including joint Malware Initial 
Findings Reports (``MIFRs'').
    Last year, UPS Stores Inc. used information published in a joint 
report on the Back-Off malware to protect itself and its customers from 
cyber criminal activity.\11\ The information in this report was derived 
from a Secret Service investigation of a network intrusion at a small 
retailer in Syracuse, New York. The Secret Service partnered with the 
National Cybersecurity & Communications Integration Center (``NCCIC/US-
CERT'') and the Financial Services Information Sharing and Analysis 
Center (``FS-ISAC'') to widely share actionable cybersecurity 
information derived from this investigation to help numerous other 
organizations, while protecting the integrity of the ongoing 
investigation and the privacy of all parties. For UPS Stores, Inc., the 
result was the identification of 51 stores in 24 states that had been 
impacted, enabling UPS Stores, Inc. to contain and mitigate this cyber 
incident before it developed into a major data breach.\12\
---------------------------------------------------------------------------
    \11\ See http://www.us-cert.gov/security-publications/Backoff-
Point-Sale-Malware.
    \12\ See UPS Store's press release. Available at: http://
www.theupsstore.com/about/media-room/Pages/The-ups-store- notifies-
customers.aspx.
---------------------------------------------------------------------------
    As the Secret Service shares cybersecurity information discovered 
in the course of our criminal investigations, the agency aggressively 
works to apprehend and bring those involved to justice. Due to the 
inherent challenges in investigating transnational crime, particularly 
the lack of cooperation of some countries with U.S. law enforcement 
investigations, it can sometimes take years to finally apprehend the 
top tier criminals. The Secret Service works closely with its partners 
in the Departments of Justice and State to develop the capabilities of 
foreign law enforcement partners and to foster collaboration.
    In July 2014, Secret Service agents arrested Roman Seleznev of 
Vladivostok, Russia, through an international law enforcement 
operation. Seleznev had been charged in Seattle in a 40-count 
indictment for allegedly being involved in the theft and sale of 
financial information of millions of customers. Seleznev is also 
charged in a separate indictment with participating in a racketeer 
influenced corrupt organization (``RICO'') and conspiracy related to 
possession of counterfeit and unauthorized access devices.\13\
---------------------------------------------------------------------------
    \13\ See http://www.justice.gov/usao/waw/press/2014/October/
seleznev.html.
---------------------------------------------------------------------------
    The Secret Service is committed to safeguarding the Nation's 
financial payment systems by defeating cyber criminal organizations. 
Responding to the growth of these types of crimes, and the level of 
sophistication these criminals employ, requires significant resources 
and substantial collaboration among law enforcement and its public and 
private sector partners. Accordingly, the Secret Service dedicates 
resources to improve its investigative techniques, provides training 
for law enforcement partners, and broadly shares actionable information 
on cyber threats.
                       major investment programs
    Many of the Secret Service's non-staffing investments in 
cybersecurity, protective countermeasures, and IT systems are included 
in two programs within the agency's budget: Information Integration and 
Technology Transformation (``IITT'') and Operational Mission Support 
(``OMS''). Prior to the establishment of these programs, in fiscal year 
2010 and fiscal year 2012 respectively, the Secret Service did not have 
dedicated programs to invest in new technologies, and for many years 
struggled to maintain existing systems with whatever resources were 
left over after the agency met its payroll obligations.
Information Integration and Technology Transformation Program
    The IITT program resulted from the recognition that the Secret 
Service's existing IT infrastructure did not adequately serve the 
requirements of our mission. Additionally, in 2008, the National 
Security Agency identified critical IT infrastructure, architecture, 
and application vulnerabilities that required immediate mitigation. The 
IITT program includes four program capability areas: (1) Enabling 
Capabilities, which consists of projects related to modernization of 
the existing IT infrastructure; (2) Control Capabilities, which 
consists of two projects that will provide the IT tools necessary to 
secure and control access to Secret Service information; (3) Mission 
Support Capabilities, which includes operational and administrative 
applications that directly and indirectly support the Secret Service's 
mission; and (4) Communications Capabilities, which was originally 
conceived in 2009 to enable full communications compatibility with the 
White House Communications Agency and includes acquisition and 
sustainment of communications devices.
    The fiscal year 2016 Budget includes $45.2 million for the IITT 
program. This funding will continue investments in IT network 
modernization, data systems, applications, security, and communications 
to fully support present operational requirements and sustain prior 
year investments and achievements.
Combined Operations Logistics Database 2
    While the IITT program has provided the Secret Service with a more 
secure, efficient, and effective IT infrastructure, one disappointment 
is the Combined Operations Logistics Database 2 (``COLD2'') project, 
which was planned to provide software applications and systems related 
to event planning, human and technical resource deployment, 
notification processes, and tracking. However, last month the 
contracting officer at the Defense Information Systems Agency 
(``DISA'') informed the Secret Service that Option 3 of the COLD2 
contract would not be exercised due to contractor performance.
    Although the COLD2 requirements are still valid, the contractor did 
not demonstrate sufficient progress in meeting the contract objectives. 
The task proved too large and too complex for a single undertaking. As 
a consequence, the Secret Service has reviewed our requirements and 
concluded that UD scheduling, event planning, and enterprise-wide 
scheduling are our sequential priorities. We have approached the 
Department for assistance in performing an independent analysis to 
determine the best path forward to address our prioritized requirements 
with options on technical approach and contracting strategies, and I 
have directed my staff to keep the Committee updated on these 
developments.
Operational Mission Support Program
    To address unmet engineering, scientific, and security technology 
needs on the White House Complex, Vice President's Residence, and at 
temporary sites visited by the President and Vice President, elements 
of the OMS program were funded through reprogrammings in fiscal year 
2010 and fiscal year 2011 before being put on-budget in fiscal year 
2012. OMS supports advanced protective countermeasures projects for 
high-priority hazardous materials detection systems, audio 
countermeasures, physical security enhancements at the White House 
Complex, and cyber protection activities to address known and emerging 
threats directed towards the Secret Service's protective interests.
    The fiscal year 2016 request includes $50.7 million for the OMS 
program, an $8.5 million increase over the fiscal year 2015 enacted 
level to accommodate the requirements of the Next Generation Limousine. 
The majority of the funds requested in fiscal year 2016 for OMS will be 
used to operate, maintain, and sustain capabilities established in 
previous years, to include personnel costs, life cycle equipment 
replacement, training, and testing.
    Although much attention is deservedly focused on the Panel's 
recommendations, I ask for your continued support of these established 
investment programs which have improved Secret Service operations and 
closed critical security gaps over the past 5 years.
                               conclusion
    I care deeply about the Secret Service and agreed to return to 
public life to make a difference. It is my highest honor to represent a 
workforce I believe is second to none. Much of what I have seen in the 
past 5 months gives me great hope, but I also understand the amount of 
work that needs to be done to put the Secret Service on a path for 
future success. Strong leadership is a hallmark of any great agency, 
and I have started to assemble a team of people I believe will take a 
fresh look at the way the Secret Service operates and will continuously 
strive for innovation and excellence in the fulfillment of the agency's 
clear statutory mission.
    As noted by the Panel, the replacement of aging infrastructure and 
investments in technology to ensure the Secret Service is on the 
cutting edge of emerging threats is critical, but successful 
stewardship of the agency also requires that I invest in our people. 
That investment begins by ensuring that staffing levels across the 
agency are commensurate with the demands of the mission and that 
training is not viewed as a discretionary function.
    With the support of the Department and the Congress over the next 
several years, I am confident that we can put the Secret Service on a 
path to success for many decades to come. Chairman Hoeven, Ranking 
Member Shaheen, this concludes my written testimony. I welcome any 
questions you have at this time.

                       POLICY: INCIDENT REPORTING

    Senator Hoeven. Thank you, Director. We will go to 
questions and responses, and we'll just start with 5-minute 
rounds and take as many rounds as necessary. So I will start 
with the first 5-minute round.
    Director, the first question, and you can make the 
distinction as to what you can comment on and what you have to 
wait for the investigation in order to comment, but my first 
question, relative to the March 4 incident, is that you weren't 
notified until March 9.
    Talk about that. What is your policy? What are the 
reporting requirements not only for this incident specifically, 
but in general? Why in the world wouldn't you be notified about 
something like this for 5 days? Why wouldn't you be notified 
immediately?
    Mr. Clancy. Mr. Chairman, you are correct, and I am not 
happy about that. We have made that point to our staff. I 
brought my staff in last week and showed my displeasure with my 
notice on that event.
    Typically, I would be notified of any misconduct. With 
respect to any criminal activity, I would be notified 
immediately. I constantly get reports on activity around the 
White House, if there is any. And I did get that evening an 
alert on the suspicious package.
    So typically, I would be notified. This one puzzles me, but 
it will not happen again. We are going to look at the policies 
to certainly fine-tune them, to be very specific with what our 
supervisors are expected to do whenever we have an incident.

                            POLICY: DRINKING

    Senator Hoeven. When you have an incident where staff have 
been drinking and are on scene, on the worksite, what is the 
policy? What are the requirements? Whether the individuals are 
working or are off duty, what is the responsibility of the 
people who are on duty to take action in regard to not only 
checking those individuals for their blood alcohol level but 
reporting the situation up the chain?
    Mr. Clancy. Certainly, any officers or agents who are on 
duty have to assess any situation. And if they felt that the 
driver or the supervisor was under the influence of alcohol, 
they should have taken appropriate action. That action would 
have been, certainly, to notify the chain of command all the 
way up to my office.
    These are allegations at this point. The OIG will determine 
what the facts are. Once those facts are known, we will take 
the appropriate action through our Table of Penalties, which 
are very specific. With, certainly, failure to report, if a 
supervisor did not report this incident, there are penalties 
for that, as there are if you are operating a vehicle under the 
influence.
    Senator Hoeven. In this instance, you had not only 
individuals who were off duty going through a crime scene, you 
also had a situation where they had been using alcohol.
    Again, what is your policy for notification when you have 
one or both of those circumstances?
    Mr. Clancy. Mr. Chairman, first, I would just caution, in 
terms of using ``alcohol'' or ``under the influence of 
alcohol.'' Until we get the OIG final report, these are still 
allegations.
    In terms of driving through a secure zone, that is a 
violation. Every agent knows that they should not be moving 
through a secure zone.
    Senator Hoeven. So you have two issues here. You have both 
a situation where agents went through a secure zone, and may 
have been using alcohol, and you have a situation where either 
uniformed personnel, agents, or both, did not report those 
facts up the chain.
    If that happens, if that incident happened today, what 
should be done? What is your policy to address that? What 
should the people on the ground have been doing? Or, what would 
they do if that occurred today?
    Mr. Clancy. Those officers should have reported that up 
through the Uniformed Division officer chain up to the deputy 
chief, and then up to the SAIC, the special agent in charge of 
the President's detail, and eventually over to the Assistant 
Director of protective operations, and then to my office. There 
is a very specific chain of command that those events should 
have been reported up through.
    Senator Hoeven. So you have a clear policy and procedure in 
place that requires that? That is in place now?
    Mr. Clancy. It is in place.
    Senator Hoeven. So that was not complied with in this 
instance on March 4?
    Mr. Clancy. That is correct. Although, Mr. Chairman, I will 
say, there may be discretion in some cases. Now, I'm not saying 
in this case, but there may be discretion. I can't think of an 
example here, but everything doesn't come to my desk. This one, 
certainly, should have.

                     JOINT OPERATIONS CENTER'S ROLE

    Senator Hoeven. Just one more question along this line, 
what about the role of the Joint Operations Center in providing 
that report?
    What I am trying to understand is what your policies and 
procedures require for this type of instance, and also what 
failsafe or additional backup is there to make sure that if 
somebody doesn't report up the chain, that there is some kind 
of backup to catch that kind of problem. I understand that you 
have an investigation ongoing as far as this individual 
incident, and we will get all the facts and make sure that 
appropriate action is taken. But I am saying, tell me how this 
is supposed to be handled today, if an event like this occurs, 
as of now.
    Mr. Clancy. If the same event happened today, that on-duty 
supervisor, on-scene supervisor, should relay that information 
up to the deputy chief of the White House, the Uniformed 
Division deputy chief. The deputy chief should then relay it up 
to the special agent in charge of the President's detail and 
then over to the Assistant Director for protective operations.
    Now, the Joint Operations Center----
    Senator Hoeven. And then the role of the Joint Operations 
Center?
    Mr. Clancy. The people assigned to the Joint Operations 
Center are watching this on the videos. They are seeing the 
scene on the videos in the Joint Operations Center, and they 
are making a report as well. At the end of the day, they will 
make a report of what they have communicated with the watch 
commander on scene.
    Senator Hoeven. So for the March 4 incidents, both should 
have reported that up the chain and did not?
    Mr. Clancy. That is correct.
    Senator Hoeven. Senator Shaheen.

                             ETHICS MANUAL

    Senator Shaheen. I just want to get a clarification because 
I have similar questions to Senator Hoeven.
    I am looking at the reference manual that is available for 
all Secret Service agents relative to standards of ethical, 
professional, and personal conduct.
    Mr. Clancy. Yes.
    Senator Shaheen. I assume you have a name for it. What do 
you call it?
    Mr. Clancy. It is an ethics manual that every new officer 
and agent receives in training.
    Senator Shaheen. But what this says is that you, meaning 
each officer, have an affirmative duty to report promptly and 
directly to the DHS Office of Inspector General or to the 
Secret Service Office of Professional Responsibility Inspection 
Division any misconduct. And then it lays out misconduct, such 
as the alleged misconduct incident on March 4.
    But based on your exchange with Senator Hoeven, it sounded 
like those options to report to the Office of Inspector General 
or Professional Responsibility in the Secret Service office 
were not what you were suggesting should have happened there.
    Mr. Clancy. Senator, my apologies. Once it reaches the 
Assistant Director of Protective Operations, once it goes 
through the Uniformed Division, through the agent in charge and 
over, then he or she makes a determination whether it should go 
to the Office of Professional Responsibility. And certainly, 
this one should have.

                             VIDEO: ERASURE

    Senator Shaheen. Okay. When we were coming into the room, 
one of the reporters shouted a question to you, which I have 
had raised with me, and that is a suggestion that there were 
videos of the incident that had been altered in some way by the 
Secret Service. I want to give you the opportunity to address 
that question in this open hearing.
    Mr. Clancy. Thank you, Senator.
    We have a practice of recording over tape that is on our 
cameras after a set period of time. I know I have seen reports 
that the tapes have been erased. That is not the case. We don't 
have a system where someone can erase tapes, put their finger 
on a dial and erase it. But video surveillance are, by 
practice, in 72 hours, is recorded over. I know that is a 
concern. Rightfully so.
    So what I did, I instructed my staff to reach out to the 
manufacturer, and hopefully we can get the manufacturer in to 
try to re-create those videos, as well as our top forensic 
cyber people to come in to work with the manufacturer. And we 
reached out to the Office of Inspector General to make sure 
that they were comfortable, and they, certainly, can be there 
on site as well.
    But we understand it is a concern. We are doing everything 
we can to retrieve those images, to be as transparent as we can 
be.
    Senator Shaheen. But just to clarify, there is a video that 
exists of the incident, at least one video of the incident?
    Mr. Clancy. Along E Street where the incident took place, 
at 15th and E, there are different camera angles. What was 
captured was the incident with the young lady who dropped the 
suspicious package. We do have three clips of that. And then 
there were two separate clips of the vehicle in question, of 
two agents driving through that checkpoint.
    Beyond that, typically, the vehicles would go to a 
checkpoint where the canines would sweep the vehicles. That 
camera angle, we do not have, and that is what we are going to 
go back and hopefully be able to capture with the help of the 
manufacturer and our folks.
    Senator Shaheen. And you have pointed out that there is an 
ongoing investigation of this incident. Can you speak to why 
the video that does exist has not been made available, not been 
shown publicly?
    Mr. Clancy. The video that we do have has been shown to 
Members of Congress. We don't release video to the public, 
because it may be evidence in a future case. So rather than 
taint witnesses or future court hearings, we don't release it.

                       CULTURE AT SECRET SERVICE

    Senator Shaheen. Thank you for that clarification.
    You know, one of the things that I know you have said you 
find particularly troubling about the March 4 incident is one 
of the things that Senator Hoeven and I have raised as well, 
and that is the fact that this incident was not reported up the 
chain.
    I, certainly, am a supporter of whistleblower protections. 
I think they are very important. But I am also concerned about 
what it says about the culture of the organization that when 
this kind of incident occurs, someone feels like they should 
talk to a newspaper or Members of Congress before they talk to 
someone within the organization.
    I wonder if you could talk about the culture that would 
suggest that that is what happens.
    Mr. Clancy. The first thing we need to do is build trust 
within our ranks, up and down. We have to build the 
communication. It always comes back to communication. And we 
haven't done a good enough job of that. When someone has 
something that they want to raise up to a supervisor, we have 
to make sure that they get some kind of response back.
    Certainly, in this case, it was more than likely difficult 
for some of those officers because there were two supervisors 
coming through. But we have to create a culture where you have 
to raise that to your supervisor and all the way up.
    And we are going to do that. As we have talked to our 
staff, and I brought them in right after this incident, we 
insisted that all communication is brought forward and talked 
through the ranks. I have had several meetings with officers. 
And, certainly, since I got here, I brought in all the agents 
and all the officers together in one room, and we talked about 
what those expectations are. I am seeing some positive 
movement, as I talk to the officers walking to work each day. I 
stop and talk to the officers, and I get a feel for how things 
are going. I do see some positive movement.
    What happened on March 4 shows we have a long way to go 
yet.

                           INSPECTION HOTLINE

    Senator Shaheen. In your statement, you point out that you 
have created an inspection hotline for employees to report 
misconduct. Can you tell me if that was used by any of the 
employees in the aftermath of the recent incident? And how are 
you communicating to people about that inspection hotline and 
the importance of using it?
    Mr. Clancy. I don't know if it was used. The OIG may have 
that information. But I will tell you, just again to encourage 
this communication. First of all, that hotline number is on our 
Web site. But additionally, we have an ombudsman, which we have 
been trying to push out. In fact, the ombudsman travels to the 
field offices and different offices to, again, try to encourage 
people, and let them know they can call us anonymously. If you 
see an issue, if you have any concerns, we want to know about 
it.
    By the same token, we are telling our officers and agents, 
if you see vulnerabilities, we need to hear about it. That is 
what we are trying to drive home.
    Senator Shaheen. Thank you.

                    POLICY FOR REPORTING MISCONDUCT

    Senator Hoeven. Director, you say, in terms of your 
policies and procedures, it is clear that for this type of 
incident, it should be reported up the chain both on the part 
of uniformed officers or agents and your Joint Operations 
Center? It is spelled out clearly in your policies and 
procedures, so people know and understand that? Is that 
accurate or not?
    Mr. Clancy. Mr. Chairman, I cannot say I have read the 
policy. I haven't gone back to read the policy. But every 
agent, every officer knows they have to report incidents up the 
chain of command. Now this one is a very serious allegation of 
misconduct. There is an allegation of alcohol. That has to be 
reported. Everyone knows that has to be reported. But I don't 
have the policy in front of me to read it.
    Senator Hoeven. What I am trying to understand is your 
follow-up now to ensure that an incident is properly reported 
up the chain, whether it is similar to this instance or perhaps 
different, trying to understand that both in your policies and 
procedures and your interaction within your agency that that 
communication has been made so that you have a comfort level or 
an assurance that your people understand that incidents have to 
be reported up the chain.
    Mr. Clancy. Yes.
    Senator Hoeven. So I am trying to understand what you have 
done, both in terms of your written policies and procedures and 
what you have done in terms of you communicating with people in 
the agency.
    Mr. Clancy. I sent a statement out to the entire workforce 
specifically saying these types of events have to be reported 
up. And we will continue to push that message out. That is in 
our training. It has been mentioned at the roll calls and shift 
briefings that this type of event--and to be honest, these 
hearings here are actually another tool, a vehicle, to get this 
word out to our workforce--that this information has to be 
passed up.

                        VIDEO: RETENTION POLICY

    Senator Hoeven. Why do you tape over the tapes after, what 
is it, 72 hours?
    Mr. Clancy. Seventy-two hours.
    Senator Hoeven. And why is it even tapes versus some kind 
of ongoing video with disc storage or something where you could 
just easily retain it?
    Mr. Clancy. I wasn't in the Service when those decisions 
were made, regarding the length of time. But my understanding 
is there was some concern for privacy issues because we would 
be capturing large databases of video surveillance, not only as 
guests come into the White House but also the general public 
walking along Pennsylvania Avenue or E Street. My understanding 
is there is something of a privacy issue.
    But I will say that 72 hours, in my view, is obviously too 
short of a time. We have to go back and look at the standards 
of other agencies and do a good best-practices look at this. 
But there is no question we have to hold these videos longer.
    Senator Hoeven. So there needs to be some thought given and 
analysis as to what that retention policy needs to be, correct?
    Mr. Clancy. Absolutely, Mr. Chairman.
    Senator Hoeven. And how do you intend to proceed with 
regard to doing that?
    Mr. Clancy. We will put a work group together representing 
legal, Uniformed Division, our protective operations people, 
and we will work with the Department of Homeland Security to 
ensure that we are retaining video the length of time that we 
need to.
    Senator Hoeven. Yes, it seems to me that you need to report 
back to us what that policy should be, how long you should 
retain it. And then does that necessitate anything in terms of 
your appropriation to make sure you have the ability to do 
that? But that is something we need to follow up on.
    Mr. Clancy. Yes, sir.

                         FENCE-JUMPER INCIDENT

    Senator Hoeven. I am going to switch to the September 19 
fence-jumper incident and just ask you to give me your report 
on how you feel that you have followed up on that instance, 
what steps you have taken that you can talk about that aren't 
subject to confidentiality, and what assurances you feel you 
have that that type of incident would be prevented in the 
future.
    Mr. Clancy. Well, first I will say that the Deputy 
Secretary Mayorkas report was obviously very helpful, very 
thorough, as was the presidential mission panel, the blue 
ribbon panel, and the recommendations that they made.
    We are moving very briskly through those recommendations. 
Anything that could be done immediately, we did, in terms of 
additional posts, additional tactical teams. Some of the 
recommendations are more longterm, which we fully endorse, such 
as--you mentioned the fence. The fence is a longer-term 
project. Within the next month, I should get a report on some 
options for the permanent fence.
    After the National Park Service and the Secret Service look 
at those options and select an option, it will take about 6 
months to go through that design process. After that, another 2 
or 3 months for procurement. And then the construction will 
begin. So it could last a year and a half.
    We know that is too long. We can't wait a year and a half. 
So we have been testing other types of enhancements on the 
fence, which I expect to be put in place this summer. It will 
be a temporary measure to get us to the final product. But we 
have done testing out at our Beltsville facility to make sure 
that it will be more difficult for people to get over the 
fence.
    What we are trying to do is, first, prevent people from 
climbing the fence, but also to give our tactical teams and our 
officers, time to react, because they are in a very difficult 
position, once somebody gets over that fence.
    Senator Hoeven. So are there other additional measures that 
you have in place now until you complete the fence that 
compensates for not having it?
    Mr. Clancy. What we have now on the north fence line is, 
for lack of a better term, bike rack out on Pennsylvania Avenue 
on the sidewalk. It creates that distance I spoke about 
earlier. And we have officers posted in the buffer area. It 
keeps anyone who may want to jump the fence farther back. It 
gives them a little more distance from that fence, and also 
gives our officers a better view of who might be trying to get 
to the fence.
    So they have to get over two fences. Admittedly, the first 
one is very easy to get over, but it gives us a chance to 
respond.
    Senator Hoeven. And one more time, based on what we have in 
this appropriation request, what is your timeline for getting 
an enhanced fence in place?
    Mr. Clancy. The final product, it may be a year and a half. 
But the interim fence, this summer.
    Senator Hoeven. So interim this summer.
    Mr. Clancy. Yes.
    Senator Hoeven. The final product, probably next summer.
    Mr. Clancy. Approximately a year and a half, yes.
    Senator Hoeven. Senator Shaheen.

                       VIDEO: SUSPICIOUS PACKAGE

    Senator Shaheen. Thank you.
    Before we totally leave the video issue, I want to go back 
and get clarification that I think was not clear in our 
questioning or your comments. You pointed out to Senator Hoeven 
and I that the reason you have the video of the incident, since 
the Secret Service normally doesn't keep that video beyond 72 
hours, is because there was another incident in that location 
that you needed to keep that video for. I think it is important 
to clarify this so that there is no confusion about the 72-hour 
parameter that you talked about.
    Mr. Clancy. Yes, Senator, thank you.
    My understanding is that when an event like this happens, 
you have a suspicious package----
    Senator Shaheen. Which preceded the March 4 incident with 
the agents.
    Mr. Clancy. Right. That was 10:25. The lady showed up and 
dropped the package. The agents came approximately 30 minutes 
later. So in the Joint Operations Center, they see that view. 
They see the camera feed. And the supervisor there, typically, 
will look at those screens and he will tag the ones that he 
thinks are pertinent for evidentiary purposes. So they will 
pick those views, and, typically, they will just keep the ones 
that are pertinent to the incident.
    I don't know if that answers----
    Senator Shaheen. I think that is helpful. I just think we 
should make it clear for the record that there is video that 
exists and it is kept beyond the 72-hour guidelines that you 
normally have because of a prior incident.
    Mr. Clancy. Yes. That is correct.
    Senator Shaheen. On the same day.
    Mr. Clancy. That is correct.
    Senator Shaheen. Thank you.

                         TRAINING AND STAFFING

    I want to go back to the budget request, because you make a 
strong case in your statement about the importance of the 2016 
budget request. You have talked about the efforts to address 
the perimeter fencing issues at the White House. Can you talk 
about the $25 million that was provided in the 2015 law above 
the 2015 request that begins to address the training and 
staffing as well? Because, as you point out, the 
recommendations were not just around the perimeter fencing, to 
address the fence-jumping incident. They also involved training 
and staffing.
    Mr. Clancy. Yes. With the training, we were lacking in 
training. Because we were very short-staffed, we did not get 
our officers and agents out to our training facility like they 
should have been. And there was not enough integrated training.
    So we have brought additional agents to the White House to 
hold post. And we brought in additional uniformed officers get 
more people out to training and have this integrated training, 
so that the officers and tactical teams and the agents are all 
out at our facility, and everyone knows what each other is 
doing. I think the report showed that everyone wasn't sure how 
the emergency response team would react. So that is the purpose 
of getting everyone out there. And we are at 100 percent 
getting our officers from the White House out to that 10-hour 
training block. I am sorry, that was a 6-hour training block 
and a 4-hour training block in the classroom.
    But training has been increased 110 percent in the 
Uniformed Division since September 19. With the agents, 
training has gone up 78 percent.
    And, as you know, Senator, we have a fourth shift training, 
but we have slacked off that over the years because of 
operational needs. So what we have done is make it mandatory. 
If you are on the fourth shift training, after you have done 
your 2 weeks of days and 2 weeks of afternoon shifts and 
midnight shifts, that fourth shift, you have to get out to 
training.
    We have done some restructuring, too. After I arrived here, 
we split our staffing Directorate and our training Directorate, 
which were combined at one time. We split them to give them 
more focus, because staffing is so critical to what we are 
doing. If we can fix our staffing issues, it is going to allow 
us to get more training, and it is going to help with our 
morale. It is going to help with the quality-of-life for our 
officers and agents.
    So by splitting that Directorate up, that got us started. 
And there are some other things we have done, which I can 
address.

                    OFFICERS VS. AGENTS: DIFFERENCES

    Senator Shaheen. Can you describe the differences between 
the uniformed officers and the agents that most of the public 
see? When they see Secret Service agents, they see people in 
regular suits with an earpiece talking into their sleeve. That 
is what many people in the public think about when they think 
about the Secret Service. But maybe you could just describe the 
differences.
    Mr. Clancy. First, Senator, I will tell you it is one team, 
and that is one thing that we are trying to push forward. We 
work together all the time; the officers and agents stand side-
by-side at the White House, on trips, on advances. So it is one 
team.
    The officers protect facilities, for the most part, 
certainly, the White House Complex. They do the magnetometer 
checks, the screening of people who come to the White House. We 
get about 36,000 people, tourists, per month coming through the 
ground floor of the White House. So they do a great job there 
at the White House.
    And the agents are more responsible for the protectee. So 
they travel with the protectees and have that inner perimeter.
    Senator Shaheen. Thank you.
    Well, I can speak to some of the agents in New Hampshire. 
We have some Secret Service agents who have been very helpful 
as we have tried to address fraud against seniors. They have 
been very helpful with us in doing that.
    Mr. Clancy. Thank you.

                                 HIRING

    Senator Hoeven. Director, talk about manpower. I know you 
are, I know, perennially short of manpower. That is part of the 
problem here. People power, having enough men and women to not 
only do the job, but to have adequate time for training. You 
mentioned the fourth shift. You may want talk about that some 
more.
    But that is a concern, and it is particularly a concern now 
this year, isn't it? Not only, like you say, having more 
manpower as you work to get things in place like an improved 
fence at the White House, but also you have a number of visits. 
You have papal visits. You have the U.N. General Assembly. You 
have, of course, the presidential election process starting. 
All those are going to require more people power, men and 
women.
    So how are you going to go about addressing that? How are 
you going to hire more people to cover all those bases, because 
you have multiple needs, the need to do more training, the need 
for these other visits? How are you going to get at that this 
year?
    Mr. Clancy. Thank you, Mr. Chairman.
    First, we had a goal of six classes of agents and six 
classes of Uniformed Division going through the hiring process 
this year. We have increased that. Now we expect nine classes 
of agents to come through in fiscal year 2015 and eight classes 
of Uniformed Division officers. So we are going to hire a lot 
more people than we had originally planned to.
    We are able to do that for a few reasons. One, we brought 
in additional administrative support to get our hiring process 
sped up a little bit. We are in the process of bringing in 
contractors to give us some help with the administrative load 
of going through USAJobs and the number of applications we get. 
We get 45,000 applications when we put out an announcement for 
an agent position. So it is very cumbersome.
    The process is a long process. It takes about 7 months. Our 
people are given polygraphs. There are background checks. All 
of this, it takes time. Medical records. But with additional 
help, and the Department of Homeland Security loaned us their 
deputy CHCO, their human capital officer, which has been a big 
help to us as well, to show us how we can be more efficient.
    So we are really putting a lot of focus on the hiring 
process, and it is so important.
    Just as an example, you mentioned the upcoming events that 
we have. For one of the things in fiscal year 2015, we have 
hired 81 agents to start, staff, and train for the former 
President Obama detail. We have to be ready on January 20, 
2017, with a full detail of 108 agents and approximately 30 
support staff. So we have already started that process in 
fiscal year 2015.
    And then next year, we will add 27. We will hire 27 more, 
so that we can continue to build that former Obama detail.
    But the challenges that we have coming up with the papal 
visit in September and the United Nations 70th anniversary, 
where we expect 170 heads of state, it is going to be a very 
challenging time for the Secret Service. We will also reach out 
to our partners, of course, with the Department of Homeland 
Security, with Transportation Security Administration (TSA), 
Immigration and Customs Enforcement (ICE), and others.
    But this is where our field offices really help us. In 
Philadelphia, they have been planning for the papal visit for 
months. New York, Washington, the same. So we are very 
fortunate that we have people in place already starting this 
process.
    So we have a lot of work to do, but we are going to be 
well-prepared when the time comes.
    Senator Hoeven. How many of these are new people or 
additional people versus backfilling, because you have an 
attrition challenge, too? So talk in terms of special effort 
you are making to get these people in place, particularly given 
the time it takes for you to not only hire them but get them 
trained, and the special effort you are making. Because just in 
a normal year, you have an attrition challenge. Now you need a 
net-plus-up.
    So what is the special effort that you are making to 
accomplish that?
    Mr. Clancy. We have some requests in the budget for some 
retention initiatives.
    Senator Hoeven. And that is a good question, too. Is this 
funding adequate for you to do it? I should ask that as well.
    Mr. Clancy. Yes, it is. First of all, for the hiring, the 
funding for the hiring, we are at capacity as it is now. So the 
funding is appropriate to get nine classes in and eight classes 
through. We are very thankful for that.
    As we build out our abilities in the hiring process, we may 
be able to bring in more classes in future years. But the 
retention part of it is really important. There is a two-part 
problem here. It is one thing to hire people, but we can't 
afford to lose our officers and our agents to other agencies or 
to the private sector.
    Like our cyber investigators, they are very talented. They 
are so talented that the private sector would love to have some 
of these agents. So we are trying to offer a plan where we can 
retain some of our specialists as well as the Uniformed 
Division officers.
    Senator Hoeven. Do you have the flexibility to do that? Do 
you have flexibility in your compensation to be able to do 
that, to retain some of those people that you are losing?
    Mr. Clancy. We do. We have to get approval for it through 
Office of Management and Budget (OMB) and others. But yes, we 
do have the flexibility.
    Senator Hoeven. Senator Shaheen.
    Senator Shaheen. When you talk about flexibility, I assume 
you are talking about increased pay for those particular 
officers? Is that what you are referencing?
    Mr. Clancy. Maybe a bonus or something along those lines. 
But it would be very limited. Again, we are going through a 
critical time here up through the campaign. That is a critical 
time for us. So it would be a very limited type of retention 
bonus.
    Senator Shaheen. To continue this line of questioning, the 
Protective Mission Panel report called for the immediate hiring 
of 200 Uniformed Division officers and 85 special agents. When 
you talked about the ramp-up on hiring that is going on right 
now, was that in response to that report or is that in response 
to the increased activities that you are expecting in 2016?
    Mr. Clancy. It is both. First of all, we want to meet that 
recommendation. It is a good recommendation. We will get the 
officers, the 200. We are on schedule to meet that. With the 85 
agents that the panel recommended to go to the President's 
detail, at this point, we have 30 that have already made that 
transition.
    Thank you for the work on the continuing resolution. We 
will have funding to transfer more people into Washington, and 
we will meet that 85 goal of agents on the detail.
    Senator Shaheen. And you talked about how important this is 
for a variety of reasons to have the staff that you need. Once 
you reach those hiring figures, are you comfortable that this 
is going to be the right size for the force? Or are you going 
to do reevaluations along the line? How are you going to 
determine that--when you think you have the number that you 
need to do the job?
    Mr. Clancy. We are going to constantly evaluate it, as we 
always do. Our mission has expanded over time. We take on more 
responsibilities.
    I just created a new Directorate, an Office of Strategic 
Planning and Policy. Under that Directorate, they will build 
models: Where are we today? Where do we need to be in the 
future? So that is one of the restructuring efforts. We are 
doing a restructuring of our executive level. And to be honest 
with you, we are leveraging the professionals that we have in 
the Service and bringing our law enforcement personnel back to 
their core mission.

                         LEAD AGENCY FOR EVENTS

    Senator Shaheen. Just because I am curious when you talk 
about planning for events like the pope's visit, the U.N. 
General Assembly meeting in New York, who is the lead in charge 
of command and control for those kinds of events? Is it the 
Secret Service?
    Mr. Clancy. Well, Philadelphia has been designated by 
Secretary Johnson as a National Special Security Event. So in 
those cases, when it is a National Special Security Event, the 
Secret Service is the lead agency. New York and Washington have 
not been designated this time. And in that case, we are working 
with our partners, both local and State.
    Senator Shaheen. What criteria are used in determining that 
designation?
    Mr. Clancy. First, the Governor of the State has to make a 
request to Homeland Security, to the Secretary. They review 
what the event is and the significance of it, the number of 
people, how many dignitaries are attending.
    So, certainly, the pope's visit in Philadelphia----
    Senator Shaheen. The pope is a top dignitary?
    Mr. Clancy. Yes, yes. And with more than 2.1 million people 
expected to come to Philadelphia, that met the requirement.

                          STAFF RESTRUCTURING

    Senator Shaheen. Can you talk a little bit more about the 
modeling that you are looking at? I assume you are looking at 
new ways of determining the size of the force and what you are 
going to need in the future. And how far into the future are 
you projecting as you are looking at that model?
    Mr. Clancy. I think I may not answer this correctly, but 
just let me say first, on the executive level, I want to just 
explain our model there. Typically in the past, we had the 
Director and a Deputy Director. The nine Directorates answered 
to that Deputy Director. What I wanted to do was move this more 
into a business and use a chief operating officer who would be 
equivalent with that Deputy Director. That chief operating 
officer position should be out this week, so we will do a 
nationwide search to get a good chief operating officer.
    Underneath the chief operating officer, we have the Office 
of Strategic Planning and Policy led by a civilian. We have a 
chief financial officer, who typically would answer to an agent 
now is answering to the Deputy Director and eventually the 
chief operating officer. But we are trying to leverage these 
professionals, these subject matter experts, which we haven't 
always done as well in the past. Even in our technical field, 
we are using a chief technology engineer to hold a position 
over that Directorate, whereas in the past, an agent has. We 
just want to make good use of these professionals.

                    CONSULTING WITH FORMER DIRECTORS

    Senator Shaheen. And as you are looking at some of this 
planning that you are thinking about for both the short- and 
long-term, have you consulted any former Directors of the 
Secret Service to see if they have insight on what best 
practices are or what they recommend you should be looking at 
as you are thinking about those kind of projections? And can 
you talk about the extent to which you might have consulted 
with them and whether they have had helpful information to give 
you?
    Mr. Clancy. The former Directors have been very helpful to 
me. From day one, they have reached out to offer any advice or 
any counsel that I would request. They constantly reach out to 
me.
    In fact, next week, I have them all coming into my office. 
We are going to meet for several hours and talk about where we 
are today, where the future is for us. And I really respect 
history. I want to hear their stories. They have all been 
through similar types of incidents, as well as staffing issues, 
as the chairman brought up before, with the Warren Commission 
in 1975, the events that year. So I want to hear what they did, 
how they built their staffs back up, and how they built that 
morale back up.
    Obviously, the key part we are going to talk about is the 
professional responsibility. What did they do to get the point 
across to their agents and their officers to ensure that there 
is no misconduct, that we are professional at all times? I am 
really interested in their comments.
    Senator Shaheen. And will this be the first official 
meeting you have had with all of the former Directors?
    Mr. Clancy. Since I have been in the acting and full-time 
positions, I met with a couple of them, to be honest with you, 
a couple of them periodically since I have been here 5 months. 
But this will be getting all of them together in a room and 
really brainstorming where we are and where we need to go.
    Senator Shaheen. Thank you.

               LABOR SHIFT: INVESTIGATIONS TO PROTECTION

    Senator Hoeven. Just one other follow-up question on having 
adequate personnel, not only retaining adequate personnel, but 
also the training. Talk a little bit about how you shift your 
workforce from the protection mission, the investigation 
mission, and back, and whether that gives you adequate help or 
flexibility to help address this manpower issue.
    Mr. Clancy. Thank you, Mr. Chairman. You will see in the 
budget, there is a labor shift of approximately $54.7 million 
that is being shifted from investigations to protection. What 
that does is provide staffing for campaign protection.
    This campaign, we don't know how many candidates we will 
have. We will have to go back to 2008, that model, because this 
year, there is no incumbent.
    Senator Hoeven. It looks like there will be quite a few.
    Mr. Clancy. There probably will be quite a few, so we will 
be very busy. And we have already started to structure some of 
our teams. From the field, we will take supervisors and agents 
from our field offices and leverage their training, their 
abilities, their experience to work as a team with all these 
different candidates.
    In fact, some of them, as we fill them, they may work the 
United Nations General Assembly in September, so they can get 
used to working together.
    Senator Hoeven. Does that create a problem for, then, your 
investigative mission?
    Mr. Clancy. Now more and more, we find ourselves with joint 
task forces, assigned to joint task forces, working with our 
State and local partners. Our Electronic Crimes Task Force, for 
example, which we have 36 of them nationally and two on foreign 
soil, if our agents get pulled out for protective assignments, 
certainly, short term, the task force or the Electronic Crimes 
Task Force, those personnel can keep those cases going. So our 
investigative mission continues even as we shift over to these 
protective assignments.

                           UNMANNED AIRCRAFT

    Senator Hoeven. So that leads right into the next line of 
questioning I want to explore for a minute, and that is 
electronics, cyber, unmanned aircraft, remotely piloted 
aircraft (RPA). We had an issue recently with UASs or RPA 
unmanned aircraft landing on the White House lawn. Talk about 
what you are doing to make sure that you are getting ahead of 
this curve, not only in terms of unmanned aircraft, but really 
the cybersecurity and the technology issues, which are, of 
course, a big concern nowadays.
    Mr. Clancy. Right. I think there are two different issues 
here. First of all, I will address the UASs, the unmanned 
aircraft. We have been out front on this, I will say. We have 
spent, thanks to the funding here, $2.5 million over the last 
few years. Some of this is classified, so I won't go too far 
with it. But obviously, we are working with our Department of 
Defense (DOD) partners. We are working with the private sector 
to address this issue.
    It is a difficult issue in an urban environment. And the 
first piece of it is detection. First, we have to know that 
these aircraft are up in the air, and we have moved forward 
significantly, even in the last few weeks. There was a media 
alert that went out a few weeks ago that we were doing some 
testing in the national capital region.
    So we are very confident that we are moving in the right 
direction. We have the right people working on this.

                             CYBERSECURITY

    The second piece of your question, having to do with the 
cyber challenges that we have in protecting the financial 
infrastructure, we are very aggressive in that field. We have 
some very talented people. One of the things we are most proud 
of is the National Computer Forensics Institute, where we bring 
in local police officers and state troopers and some judges as 
well but mostly local law enforcement. We train them at this 
facility, then we send them back out to their communities, and 
now they are partners with us. They work on the Electronic 
Crimes Task Force with us in their respective cities.
    In fact, there was a recent case not too long ago where 
there was a local police officer in Seattle who had attended 
our institute in Alabama, and he took those skills and broke a 
very significant case, the Roman Seleznev case, where he was 
extradited from Guam about a year ago, I think it is now. But 
they are working some very significant cases, our cyber agents.
    Senator Hoeven. Do you have some way to test and verify 
that you are ahead of the curve when it comes to unmanned 
aircraft or to cyber? I mean, do you have a process whereby you 
can actually have people within your agency or other agencies 
to actually challenge your defenses in both areas to ensure 
that they are up to the task?
    Mr. Clancy. With regard to the UAS part of it, again, some 
of that will be classified and I wouldn't want to get into it 
here with what we are doing, what our capabilities are right 
now. In terms of cyber, I think our history shows how we have 
been very successful in stopping a lot of these transnational 
cyber cases. Billions of dollars have been seized, or the 
potential of that kind of damage has been stopped by our cyber 
investigations.
    Senator Hoeven. I think with your cyber mission, that lends 
itself well to also having that defense. It just seems to me, 
and we may have to talk about it in a confidential setting, but 
you need to have some way to test your defenses. You have to 
have some other agency or some entity that can test your 
defenses when it comes to technology and test your defenses, 
procedures, or capabilities, however you want to refer to it, 
when it comes to some of the new unmanned aircraft as well.
    They are both evolving so rapidly. Though given your 
historical mission in terms of technology, you have a lot of 
capabilities. We have to make sure that there is funding, and 
that we have a way to test those defenses.
    Mr. Clancy. Certainly, in the cyber world, there is 
research and development. We have a great partnership with 
Carnegie Mellon. We have an agent assigned down there, and they 
constantly look for new avenues that these transnational 
criminals are using to try to hack into our system. So we think 
we are staying in front of the curve on a lot of that.
    Senator Hoeven. Senator Shaheen.
    Senator Shaheen. When you and I met in my office, one of 
the cases we talked about was a scheme by three Romanians who 
hacked into Subway restaurants across the United States. The 
resident agent in charge was from Manchester, and he worked 
with the U.S. attorney and with the New Hampshire State Police 
to help crack that case. That kind of cooperation between the 
Secret Service and local law enforcement and State efforts I 
think is very important.
    Can you talk a little bit about the training? You talked 
about the officer in Seattle who had gone to the training in 
Alabama. Can you talk about the kinds of things they are 
trained to look for?
    Mr. Clancy. Yes. They are looking at computer forensics as 
well as network intrusion. Again, the Electronic Crimes Task 
Force, those graduates eventually go to, are really a 
convergence of not only local and State law enforcement and 
Federal agencies, but the private sector has representatives 
there, and academia has representatives there, too. So it is a 
really great, broad spectrum of people working together to try 
to solve these cyberattacks.
    Senator Shaheen. And the training that is held in Alabama, 
is that run by the Secret Service?
    Mr. Clancy. It is. We do the training, but it is a joint 
venture with the State.
    Senator Shaheen. The military has a separate Cyber Command 
unit. DHS has a focus on cyber. Talk, if you will, about the 
coordination that goes on, or is there any coordination that 
goes on? And how do you determine who is the point of contact 
on particular efforts that are underway?
    Mr. Clancy. Well, for the Secret Service, we are protecting 
the financial institutions, the financial structure of the 
country. So that is our main focus. Some of the other agencies 
may be involved in nation-state type of attacks. So there is a 
clear delineation of responsibilities.
    But there is plenty of work out there, so there is a great 
relationship between us and Homeland Security Investigations 
(HSI) and, certainly, the Federal Bureau of Investigation 
(FBI). We work together and rely on each other's experiences.
    Senator Shaheen. It is that coordination that I am really 
interested in and trying to get at, because I think in a lot of 
breakdowns, whether September 11, looking at the Charlie Hebdo 
terrorist attack in Paris, one of the sad pieces of information 
that has come out in the investigation of those kinds of 
attacks is often that different law enforcement agencies have 
different pieces of what was going on, but the communication 
about that wasn't shared in a way that allowed people to get at 
what was about to happen and how to prevent it.
    So can you just talk a little bit more about the 
coordination. For Cyber Command, for example, within DOD, as 
they are looking at cyber threats, what would they share with 
you all and vice versa, as you are looking at cyber threats?
    Mr. Clancy. Well, there is the National Cybersecurity and 
Communications Integration Center from DHS. And as we develop 
these cases, information comes down and is pushed out to the 
private sector.
    I will give you an example. Not too long ago in Syracuse, 
New York, there was a small retailer that our agents noticed 
was hacked into. They saw the malware. They alerted the 
retailer. But then they also pushed that information out to the 
private sector. And as a result of that, there was a much 
larger retailer, which I won't name here, but they were able to 
go into their systems with that information and see that they 
had just recently been attacked by that malware. They were able 
to nip it in the bud.
    So we put out 400 to 500 notifications to the private 
sector each year to help them discover if their systems have 
been hacked into.
    Senator Shaheen. I have been to the fusion center in New 
Hampshire. I know how effective it is in getting out that kind 
of information. But say something comes in on the defense side. 
How would they get that information to the Secret Service?
    Mr. Clancy. From defense?
    Senator Shaheen. Do they pick up the phone and call? Is 
there a regular meeting? Do they have somebody who sits in the 
cyber center at DHS here who can share information? How does 
the actual exchange of information happen? I mean, if that is a 
classified response, that is fine. I am just trying to figure 
out the coordination.
    Mr. Clancy. Yes, the Joint Terrorism Task Forces are a 
group of all representatives from all the different agencies 
and DOD, so there is constant sharing. There is not an issue in 
terms of getting the information out to people.
    Senator Shaheen. And how often does that task force meet?
    Mr. Clancy. That is constant. They are always typically 
sitting side by side in the same office.
    Senator Shaheen. Okay.
    Mr. Clancy. There is constant communication. In fact, I 
think, if I can recall the details of this, more on the cyber 
side you had inquired about, there is an individual who I want 
to say was in Chicago and there was a threat to a hospital. The 
local law enforcement was part of the Electronic Crimes Task 
Force, so he immediately got in touch with his partners in that 
task force. They were able to look at the IP address from where 
that threat came in, and they were able to track it back to a 
foreign country. So that gave them some relief that that threat 
was not coming from Chicago.
    So there is that coordination. It happened very quickly, 
and they could alleviate that fear of that threat.
    Senator Shaheen. Thank you.

                 JOINT OPERATIONS CENTER: COMMUNICATION

    Senator Hoeven. Director, on the Joint Operations Center 
(JOC), have you taken steps and are you confident that for any 
incident that might occur at the White House, that they have 
the communications capability to get everybody doing what they 
need to be doing as part of a crisis response?
    Mr. Clancy. Yes, from a communication standpoint, 
absolutely. And I would invite you to come to our Joint 
Operations Center at our headquarters to see it. But we have 
representatives across-the-board within our agency, from 
tactical to Uniformed Division to two technical people and 
agents, so that everyone can address any issue around the White 
House complex in a moment's notice, and there is that 
communication.
    Just as an example, our counter-surveillance people whom we 
have out on the perimeter of the White House, if they see 
something, they can call the Joint Operations Center and ensure 
that everybody is aware there is a certain individual who may 
be on the perimeter that they are watching. And then if they 
stop someone and there are identifiers, and they start to 
interview them and there is a concern here, there is a nexus--
they may have intent to do something bad. Now we have systems 
in place where we can do a more thorough check for their 
background, whether it is criminal background or suspicious 
behavior. It's one-stop shopping to tie into other agencies and 
find out if this individual has previous history.
    Senator Hoeven. In both the March 4 incident, and I realize 
that is still under investigation by the Office of Inspector 
General, so we will get more information, but even still, based 
on what we know already, in both the March 4 incident and the 
September 19 incident, communications was part of the issue. We 
have talked about just the need to communicate up the chain. 
Well, that is something you have to work through your agency, 
through the training, the policy and the procedure. And we have 
talked about how you are working to address that, and that is 
very important.
    But we also have to talk about the fundamental capability, 
the technological capability to communicate the way you need to 
in any given circumstance. I want to make sure that you are 
also addressing that technology side so that if the Joint 
Operations Center needs to take control and get everybody 
moving the same way, even when they may be remote from the 
incident, that you have addressed that.
    Mr. Clancy. Yes, September 19, specifically, what we found 
was that the Joint Operations Center couldn't override an 
officer speaking on his handheld radio. That has been 
corrected. Now the Joint Operations Center, because they have 
the best information, the most current information, they can 
override the officer who is on his handheld radio.
    On a larger look at this, the Joint Operations Center is in 
need of enhancements, a restructuring. The infrastructure needs 
to be rebuilt. It was built in 2008, and the equipment is 
starting to break more often and getting parts is more 
difficult. So that is in the budget as well this year. We are 
trying to build up that infrastructure.
    If I were to give you an analogy, it is like a race car 
that is speeding along 24/7, a high-speed race car that 
continuously has to stop for pit stops as tires go flat or 
equipment breaks. As the car gets older, it breaks more often. 
That is where the JOC is now. It is getting older and older. 
There are more breakages. It is actually affecting our 
encryption on the radios, trying to get parts to ensure that 
our radio communication is encrypted.
    We are still in good shape right now, but as we move 
forward, we need to build out that infrastructure and improve 
upon it.
    Senator Hoeven. Is that addressed in this appropriation?
    Mr. Clancy. It is. Yes, it is.
    Senator Hoeven. And you are confident now for an incident 
that occurs in one part of, for example, the White House 
complex, an officer or agent reports up, that your Joint 
Operations Center can fully take charge of the communications 
and have everybody talk about that incident and the response?
    Mr. Clancy. Yes, absolutely.
    Senator Hoeven. Senator Shaheen.

           NATIONAL CENTER FOR MISSING AND EXPLOITED CHILDREN

    Senator Shaheen. Senator Hoeven mentioned in his opening 
comments the National Center for Missing and Exploited 
Children, which has had a special relationship with the Secret 
Service. I wonder if you could talk a little bit about that 
relationship, but then also talk about whether the funding, as 
Senator Hoeven referenced, because OMB has cut all Secret 
Service funding for the center again this year. But the 
subcommittee in previous years has restored those funds.
    Can you talk about whether this should be part of the 
funding request through the Secret Service, or if it should be 
funded some other way, and how you think the subcommittee 
should address that?
    Mr. Clancy. My understanding, at least, is that the 
President's budget has suggested all these grants go through 
the Department of Justice. I will tell you that we have a great 
history with NCMEC. And by working with our local law 
enforcement partners, we are able to offer forensic services. 
We are able to offer polygraph examinations. So we think we 
have a lot to offer.
    It is obviously a very important mission for us. And we 
have been doing this for many years. It is a great partnership, 
so we would like to continue to stay involved with the group.
    Senator Shaheen. How did that initial relationship begin 
between the Secret Service and the center?
    Mr. Clancy. I don't have the history for that. I want to 
say it goes back to probably 1998. Maybe somebody can correct 
me on that--1994 is when we started that relationship.

                         INVESTIGATIVE MISSION

    Senator Shaheen. Thank you.
    Finally, one of the things that we have heard in recent 
days from some Members of Congress and some on the outside who 
are looking at the challenges that have faced the Secret 
Service, really since the incident in Cartagena, is that maybe 
the investigative mission should be turned over to somebody 
else. Maybe the agency is not able to do all of the areas of 
responsibility that it has taken on, and other agencies should 
step in.
    Can you respond to that and whether you think that is the 
way to resolve the challenges currently facing the agency?
    Mr. Clancy. I would disagree strongly on that matter for a 
couple reasons. First, the experience you get in the field is 
so critical from an investigative standpoint taking that 
experience to the protective side. You are dealing with people 
on the street. You are sizing people up. You are getting a 
chance to really see what their mannerisms are. That is in the 
investigative field. You are doing the same thing on the 
protective side.
    On the protection side, also, when the President goes to 
Chicago, that office takes control of that initially, until the 
President's detail arrives. They do the initial work with the 
locals and State law enforcement. They have those relationships 
already. When you are working with somebody in investigations 
and now you have to ask them for personnel to support a 
protective mission, you already have that.
    Even from an economical standpoint, say, for example, in 
Chicago, there are maybe 50 agents who are already there who 
can protect the President when he arrives there. You don't have 
to reach out to Washington, if everyone is stationed in 
Washington, and have them travel. That is travel money, hotel 
money, per diem. We already have people in place there who have 
great relationships already. They know the community, so we 
rely on them tremendously.
    Even in the cyber world, throughout the country, we have 
our critical systems protection (CSP) agents. So when the 
President comes again, and I will use Chicago as an example, if 
he's going to a large indoor facility, that CSP group, they 
will look at potential for any cyber attacks that might be 
hitting the hotel. Is anybody trying to get control of the HVAC 
systems or the elevator banks?
    So we use these field offices in the protective mission as 
well as in our investigative mission. They are so valuable. It 
also gives us that surge potential to, like the pope's visit. 
We can bring officers from any of these offices to support the 
U.N. 70th as well as the papal visit.
    Senator Shaheen. Thank you.
    Mr. Clancy. I am sorry, one thing I should mention, too, 
most important, if we ever have a threat in Kansas City or 
Chicago, the first people who are going to respond to that are 
our investigators in the field. So we get immediate response. 
And we can't farm that out. We can't ask somebody else to go do 
that investigation for us. That is most critical.

                          TOP THREE PRIORITIES

    Senator Hoeven. Okay, well, I think we will wrap up.
    Director, I guess as just part of concluding, is there 
anything else that you want to make sure that you bring up for 
this hearing? I would just say, give me your top three 
priorities right now. What are your top three priorities that 
you have? And then is there anything else you want to make sure 
we cover as part of this hearing?
    Mr. Clancy. Well, my first priority would be staffing. We 
are well on our way to regain our health there. Training, we 
have additional work to do there, but we are, certainly, moving 
in the right direction. And then within the Service, I would 
say, morale.
    We have to build this morale up, build up the trust within 
the Service, so that we don't have people being concerned about 
raising issues up through the ranks. We have to build that 
trust. And I think as we get the staffing levels up, the 
training levels up, and open these lines of communication, we 
are going to be much better off.

                   ACCOUNTABILITY: TABLE OF PENALTIES

    Senator Hoeven. And what is your message to your people, 
given what has happened with these incidents? What are you 
telling them? And what are you asking of them?
    Mr. Clancy. People are going to be held accountable. We 
have a very strict Table of Penalties. They all know what the 
Table of Penalties are. They have been in place for about a 
year. We are revisiting those penalties now to ensure that they 
are fair but also severe enough in some of these cases.
    But most importantly, if you don't perform in a 
professional manner on-duty or off-duty, you are going to be 
held accountable.
    Senator Hoeven. And we have talked about the problem and 
the need to address the problems. But I also, in closing, want 
to thank you and the entire agency and all of your personnel 
for the important tasks you do and want you to know that we 
appreciate it and appreciate all of your people very much.
    Mr. Clancy. Thank you, Mr. Chairman.
    Senator Hoeven. Senator.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Shaheen. Well, I would just echo that and to recall 
that the Secret Service has a proud history and tradition, and 
has enjoyed the respect of the American public. Hopefully, the 
challenges that it is currently facing can be addressed in a 
way that again regains that respect. We stand ready to help 
you.
    Mr. Clancy. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department subsequent to the hearing:]
            Questions Submitted by Senator Patrick J. Leahy
                                 drones
    Question. In February, the Secret Service announced that it would 
conduct a series of exercises around the Washington, DC area involving 
the use drones. I have many concerns about the constitutional, safety, 
and privacy implications regarding the use of drones by law enforcement 
agencies. However, I also realize that the Secret Service has an 
obligation to develop and test methods to counter the threats posed by 
small drones.
    In light of the drone that recently crashed on the White House 
grounds, what steps are you taking to defend against the threats posed 
by this rapidly evolving technology?
    Answer. Since the plane crash incident on the South Lawn of the 
White House grounds in 1994, the Secret Service Airspace Security 
Branch and Technical Security Division have implemented numerous 
policies and air surveillance technologies to secure the airspace 
around the White House and the National Capital Region (NCR). With the 
assistance of our interagency and military partners, the Secret Service 
has restricted the airspace around the NCR with enhancements to the 
pre-existing P-56 (prohibited airspace) restrictions, and the creation 
of the Flight Restricted Zone and the Special Flight Rules Area.
    The current threat posed by unmanned aircraft systems (UAS) has 
initiated a Secret Service evaluation and investment into current and 
future technologies to identify and eventually mitigate against UAS 
incursions into Secret Service protected sites and facilities. Specific 
information on the steps the Secret Service is taking to defend against 
threats posed by UASs is classified and can be provided separately in a 
brief as desired.
    Question. In addition to the use of drones by the Secret Service to 
test possible countermeasures, does the Service currently operate 
drones to assist its investigative or protective mission? If not, does 
the Secret Service have plans to operate drones in the future?
    Answer. The Secret Service's Counter Surveillance Division 
currently participates in a working group dedicated to researching the 
threats posed by drones, countermeasures to defeat their use in an 
attack, and the use of unmanned aerial systems to enhance its 
protective mission. To accomplish this research, the Secret Service is 
testing defensive countermeasures around protected properties and the 
potential use as an aerial observation platform.

                          SUBCOMMITTEE RECESS

    Senator Hoeven. Thank you, Director. We are adjourned.
    [Whereupon, at 3:32 p.m., Thursday, March 19, the 
subcommittee was recessed, to reconvene at a time subject to 
the call of the Chair.]

                                   - 
</pre></body></html>
